OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SENEGAL’S
ECONOMIC GROWTH
ACTIVITIES


AUDIT REPORT NO. 7-685-11-006-P 

MARCH 31, 2011





DAKAR, SENEGAL
Office of Inspector General


March 31, 2011

MEMORANDUM

TO:                 USAID/Senegal Mission Director, Kevin Mullally

FROM:               Acting Regional Inspector General/Dakar, Van Nguyen /s/

SUBJECT:            Audit of USAID/Senegal’s Economic Growth Activities (Report Number 7-685-11­
                    006-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in Appendix II.

The report includes five recommendations. On the basis of actions taken by the mission and
supporting documentation provided, final action has been taken on all five recommendations.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 5 


     Program Targets Were Imprecise ............................................................................... 5 


     Partner Results Were Not Verifiable ........................................................................... 6 


     Subcontractor Had a Conflict of Interest ..................................................................... 8 


Evaluation of Management Comments....................................................................... 10 


Appendix I – Scope and Methodology ........................................................................ 11 


Appendix II – Management Comments ....................................................................... 13 


Appendix III – Table of Indicators................................................................................ 16 





     Abbreviations

     The following abbreviations appear in this report:

     ADS              Automated Directives System
     AOTR             Agreement Officer’s Technical Representative
     FAR              Federal Acquisition Regulations
     FY               Fiscal year
     IRG              International Resources Group, Inc.
     LOL              Land O’Lakes, Inc.
     OIG              Office of Inspector General
     PCE              Projet Croissance Economique
     SME              Small or Medium Enterprise
     USG              U.S. Government
SUMMARY OF RESULTS 

USAID strives to create jobs and fight poverty in Senegal by increasing economic growth
through trade and natural resource management. USAID/Senegal’s economic growth program
works to develop more effective and accountable governance and sustainable exploitation of
agricultural and natural resources, which increases economic growth and reduces poverty. In
particular, the mission supports increased trade in agriculture and natural products, public-
private partnerships, biodiversity conservation, business development services to budding
enterprises, and national policies that encourage economic growth, trade, and the environment.

The economic program in Senegal focuses on export-oriented activities to increase household
and enterprise revenues, predominately in the agriculture and natural resources sectors.
Competitiveness of Senegal’s enterprises will be increased through access to improved
technologies, business development services, and better access to market information.
Recognizing that continued growth depends on the sustainable use of the resource base,
USAID will directly address broader environmental issues to ensure sustainability of natural
resources. A clear link has been made between the conservation of natural capital, increased
economic opportunities, and local governance. To this end, the mission concentrated on
ecosystem management in the southeastern area of Senegal and the coastal regions of
Casamance and the Sine-Saloum Delta. The mission assisted in developing laws, regulations,
and institutions that progressively respond to the needs of the Senegalese and foreign
investors, allowing them to take advantage of competitive trade opportunities.

At the time of the audit, the USAID/Senegal economic portfolio included 12 programs with total
funding of approximately $141 million. In fiscal years (FYs) 2009 and 2010, the mission
obligated $77.8 million and expended $32.3 million for economic growth activities. Of these 12
programs, two totaling $84.4 million were selected for the audit, as described below:

   	 International Resources Group’s (IRG) Wula Nafaa program to provide technical
      assistance in increasing the sustainable, profitable, and decentralized use and
      management of agricultural, marine, and natural resource bases, which runs from
      August 2008 through August 2013, with total funding of $22.6 million.

   	 IRG’s Projet Croissance Economique (PCE) activity to provide technical assistance for
      strengthening value chains in the production and sales of agricultural commodities and
      increasing the security of the food supply, which runs from December 2005 through
      November 2013, with total funding of $61.8 million.

This audit was conducted to determine whether USAID/Senegal’s economic growth program
achieved its main goal of increasing economic growth by improving the enabling environment to
attract more investment, increasing the volume of trade, and creating wealth through better
management of Senegal’s natural resources.

The audit determined that the mission has partially achieved its goal of increasing economic
growth. Specifically, the mission achieved its goals of improving the enabling environment to
attract more investment, but did not achieve its goals of increasing the volume of trade and
creating wealth through better management of natural resources for both FYs 2009 and 2010.
For example, regarding the mission’s activities to attract more investment, the mission
reportedly provided 148 training events on topics related to investment capacity building and


                                              1

improving trade, surpassing its target of 50 in FY 2009. These training events reportedly
reached 3,447 participants, far surpassing the mission’s goal of 2,600. Likewise, in FY 2010,
the mission reportedly provided 5,064 firms with capacity training related to exporting goods,
exceeding its target of 2,200 firms.

Concerning increasing the volume of trade, although the mission increased the percentage
change in value of purchases from smallholders of targeted commodities by 194 percent
compared with its target of 35 percent in FY 2009, it did not achieve 64 percent of its indicator
targets for increasing the volume of trade. It did not meet its goal of increasing the percentage
change in value of international exports of targeted agricultural commodities—reportedly
achieving only 25 percent compared with the target of 50 percent. In addition, the mission
reportedly provided support to only 3,456 of the 4,100 planned agriculture-related firms, and none
of the targeted three public-private partnerships were formed. Similarly, in FY 2010, the mission
did not meet targets for 53 percent of its indicators measuring volume of trade. The change in the
value of export commodities increased by only 13 percent, less than the target of 25 percent, and
reportedly only 491 of the targeted 1,500 firms received assistance to improve business practices.

Concerning the creation of wealth, the program has had a positive impact, but the mission did
not meet all its goals. The mission did not increase the number of additional hectares under
improved technologies or management practices as planned, achieving only 691 hectares
compared with its target of 3,029 in FY 2009 and 198 hectares compared with its target of 392
in FY 2010. Also, the mission reportedly assisted only 206 of the targeted 270 women’s
agricultural organizations in FY 2009, and just 105 of the 225 targeted women’s agricultural
organizations in FY 2010. Furthermore, although the mission reportedly increased the value of
sales and the number of “full-time” jobs created, the audit team was unable to verify these
achievements for one partner because of inadequate documentation. (Appendix III lists all of
the economic growth indicators.)

The mission did not meet several of its goals in FYs 2009 and 2010 for numerous reasons. The
economic growth portfolio primarily consisted of new and ambitious activities. Beginning in FY
2009, USAID/Senegal became one of the first missions tasked to respond to USAID’s Global
Food Security Response program, known as the Feed the Future Initiative (a new development
program not only for the mission, but also for USAID), with lifetime funding of at least $47 million.
Furthermore, the mission suffered from staffing shortages that were not alleviated until the fall of
2010. The mission acknowledged in official documents that the expanding program and
increased pressure to show transformational results taxed its resources to the point where it was
concerned that it would be unable to ensure that program results were adequately measured.
The mission recently hired a monitoring and evaluation specialist to address this concern.

Nonetheless, the programs’ activities contributed to the goals of the economic growth portfolio in
other areas. For example, the auditors visited villages that had received training and the
knowledge to cultivate local natural resources more efficiently and economically and to
implement new business practices, which allowed them to increase profits by selling their
products at prices five times higher than their original prices. The Wula Nafaa program reported
the creation of more than 13,000 jobs, increased the economic benefits of approximately 17,000
individuals, and helped encourage more than $11.7 million in total sales by beneficiaries.
Additionally, the program has placed 852 hectares under improved conservation management
practices. The PCE program has also reported key successes. In FY 2010, owing to the
actions of the mission to remove barriers in the lending environment, the PCE program issued
more than $2.8 million in Development Credit Authority loans during a 6-month period, more
than doubling the number of loans from the entire previous year. Also in FY 2010, PCE


                                                 2

launched a training initiative based on a series of training booklets of best practices related to
production, harvest, storage, and conservation of quality maize. The booklets were translated
into three local languages, and the program reached a producer base of more than 12,000
farmers in 173 villages spread over seven regions.




     Photo of lalo in the raw form before being processed into powder used as a thickening
     agent in food items such as couscous and as a laxative. (Photographs taken by a
     USAID/Senegal Program Officer and OIG auditor in December 2010.)




     Photo of a baobab tree, whose fruit is picked and turned into various products such as
     fruit drink, powder, dried pieces, and skin care lotions. (Photographs taken by an OIG
     auditor in December 2010.)

Notwithstanding the achievements highlighted above, the audit found that the mission had not
adequately established performance targets for its Wula Nafaa program. The Wula Nafaa
program had not achieved several of its targets and exceeded a few by a large margin. In fact,
program officials were certain that the program would not be able to achieve several of them by
the end of the program (page 5). The audit also found that results for two main indicators, the
value of sales and the number of jobs created, could not be verified because of a lack of
supporting documentation (page 6). The audit also discovered a conflict of interest with one of
the implementing partner’s subcontractors (page 8).




                                                3

The report recommends that USAID/Senegal:

1. 	 Establish accurate performance targets for all Wula Nafaa indicators (page 6).

2. 	 Require beneficiaries to maintain adequate documentation and establish an action plan to
     train beneficiaries on maintaining adequate documentation (page 8).

3. 	 Develop and implement a site visit plan incorporating data verification (page 8).

4. 	 Require IRG and its subcontractors’ senior technical and management personnel involved
     with selecting beneficiaries to sign conflict of interest statements (page 9).

5. 	Require IRG to establish and implement procedures with regard to the selection of
    beneficiaries to minimize the risk of having other conflicts of interest (page 9).

Detailed findings appear in the following section. Appendix I contains the audit’s scope and
methodology.

USAID/Senegal agreed with all five recommendations in the draft report. Based upon actions
taken by the mission and supporting documentation provided, final action has been taken on all
five recommendations. Appendix II contains USAID/Senegal’s written comments on the draft
report. Our evaluation of management comments is included in the report on page 10.




                                                 4

AUDIT FINDINGS
Program Targets Were Imprecise
According to Automated Directives System (ADS) 203.3.4.5, USAID operating units should set
performance targets that are ambitious, but can realistically be achieved within the stated
timeframe and with the available resources. Targets should also be established for the end of
the assistance and may be set for the interim years as well. Additionally, ADS 203.3.7.1
requires mission personnel, during their portfolio review process, to address the adequacy of
the performance indicators selected in the performance management plan and expectations that
activities will meet their planned targets and results.

The Wula Nafaa contract, awarded to International Resources Group (IRG), was expected to
achieve certain targets for fiscal years (FYs) 2009 and 2010. However, the program did not
meet 50 percent of its Wealth Creation indicator targets in FY 2009 and did not meet 70 percent
of its targets for these indicators in FY 2010. For example, in FY 2009, the target for the
percentage change in value of purchases from smallholders of targeted commodities was 500
percent, but the program achieved only 194 percent. As another example, the FY 2010 target
for the number of firms receiving assistance to improve management practices was 1,250, but
the program assisted only 445 firms. The program also failed to meet annual targets for four
(57 percent) of the biodiversity conservation indicators in both years. For example, the program
failed to meet targets related to the number of individuals receiving short-term agriculture
productivity training and the number of hectares under improved natural resource management.

In fact, Wula Nafaa staff stated that it is unlikely that it will meet the contract-end targets for
many indicators. According to Wula Nafaa officials, the project proposal forecasted targets
based on the rate of success of the original Wula Nafaa program implemented from 2003 to
2008. According to the chief of party for the Wula Nafaa program, it has become more difficult
to replicate those results over time as the proposal failed to take into account any rate of
diminishing returns in the region. The program, located in a rural region of Senegal, has had to
look farther and harder to find unreached and dynamic producer groups in the region.
Currently, the program works in several varied supply chains throughout the central, eastern,
and southern remote regions of Senegal. In addition, the creation of the agriculture component
further broadened the efforts and focus of the project, especially given that the activities in the
agriculture development were new to the Wula Nafaa program. The program is nearing the
halfway point of the contract and is still struggling to adjust staffing and program funds to meet
the demands of this component.

With 40 percent of the contract life already past, 10 of the 24 indicators’ contract-end targets are
less than 30 percent completed. Furthermore, according to Wula Nafaa officials, it is unlikely
that the program will meet these targets because the mission has directed the Wula Nafaa
program to focus more on the sustainability of the activities completed rather than on new or
expanding activities.

Additionally, as part of the mission’s more elaborate Feed the Future program, started in the
spring of 2009 under the Global Food Security Program, the Wula Nafaa program received
approximately $10 million in additional funding to create an agriculture development component.
Although the program met the majority of its annual targets in this component for both years, the



                                                 5

component lacked contract-end targets, and neither the mission nor the implementing partner
knew the long-term capacity for this component.

Conversely, the Wula Nafaa program exceeded a few targets by a large margin. For example,
9 of the 16 indicators in the agricultural component, added during FY 2009, exceeded their
annual targets by more than 130 percent in FY 2010. In FY 2010, the number of new water
management systems put in place totaled 86, when the program had a target of only 10 for that
period. Additionally, the program had a goal to train 50 farmers on techniques with new
technology, but far exceeded that target by training 672 farmers. As another example, two of
the four policy reform and communication indicators have already achieved more than double
the contract-end target. For example, at of the end of FY 2010, the number of policies, laws,
agreements, or regulations promoting sustainable natural resource management and
conservation totaled 47 when the 5-year goal was just 18, and the number of public education
and outreach events organized totaled 242 when only 120 were targeted.

Many targets appear to have been overly ambitious, making them difficult to achieve, or too
conservative, making them easy to exceed. This situation has occurred because even though
the mission conducted timely and adequate portfolio reviews, Wula Nafaa program officials had
not informed mission officials that the targets were unlikely to be met or in other cases quickly
surpassed and needed to be modified. Wula Nafaa officials stated that they planned to address
this issue with the mission; however, they had not done so because they wanted to evaluate
their data and reestablish new targets before formally informing the mission. The mission
disagrees that some targets were too ambitious and would like to hold Wula Nafaa to them.
There is an obvious need to resolve the disagreement and develop precise and realistic targets.
For management and reporting purposes, targets that are set too low or too high may not
provide valuable information to improve program activities. Targets that are realistic yet
challenging may help encourage improved results. The program needs to reassess its targets
and goals, taking into consideration the changing environment and priorities. Therefore, this
audit makes the following recommendation:

   Recommendation 1. We recommend that USAID/Senegal, in conjunction with the
   International Resources Group, establish accurate performance targets for the end of
   the contract period for all indicators reported by the Wula Nafaa program.

Partner Results
Were Not Verifiable
To measure performance effectively and make informed management decisions, missions must
ensure that quality data are collected and made available. USAID provides its assistance
objective teams with extensive guidance to help them manage for improved results. Among this
guidance is ADS 203.3.5.2, which states that the USAID mission/office and assistance
objectives teams should be aware of the strengths and weaknesses of their data and the extent
to which the data’s integrity can be trusted to influence management decisions. According to
ADS 203.3.5.1, Data Quality Standards, performance data should meet data quality standards
for validity, integrity, precision, reliability, and timeliness, and should clearly and adequately
represent the intended result.

Of the seven main indicators selected for audit, the audit team was unable to verify reported
results for two indicators for the Projet Croissance Economique (PCE) program, implemented by
International Resources Group (IRG): the value of sales and the number of jobs created. For



                                                6

these two indicators, the team visited 12 of 125 businesses1 to verify reported figures for
FY 2009.

For the most part, the audit team was unable to verify the reported sales figures because
documentation was not available. Table 1 shows that four businesses were unable to provide
any support, three others claimed that the person who might have the support was unavailable
at the time of the audit visit, and five businesses provided some type of sales reporting.

                Table 1: Results From Attempts to Verify Value of Sales Reported

                      Name of Business                            Verification of Sales
                                                                        Partial       Could Not Be
                                                       No Support      Support         Determined
          Fede Yakaar Niani Wulli                                         X
          WHEPSA Cotton                                                                    X
          WHEPSA Bissap                                                                    X
          UTL Sadioyel                                       X
          UTL Maman Jeanne                                                X
          ETS Pulagu                                                      X
          Findirde GIE                                                                     X
          UTL Mandiya                                        X
          Coopérative des Producteurs de Mbane               X
          La Laiterie du Berger                                           X
          Fédération des Planteurs de Sokone                              X
          Fédération des Transformateurs de Fatick           X

Regarding the five instances where partial support was provided, the figures did not match the
result reported by IRG. In all 12 cases, the businesses were unable to fully support the sales
figures reported by IRG.

Similarly, for the number of jobs created, the audit team was unable to verify the reported
figures at all 12 businesses listed above; there was no documentation to support the reported
numbers. In the absence of thorough record keeping, it appears that IRG was reporting figures
based on oral testimonies and estimates.

Business owners were sometimes confused about the definitions of the indicators. For
example, two groups of producers (Fédération des Producteurs et Planteurs d’Anacarde and
Regional Federation) provided the number of members in the group rather than the number of
jobs created. In addition, some businesses were using estimated sales amounts rather than
actual sales amounts for ease of recording, and some were reluctant to share private business
information.

When sales records were provided, the quality and quantity of record keeping varied from
business to business. There was no standard method for documenting sales. For example, it
was not clear if the records were complete, who input the figures into the notebook, what basis
of accounting was used, or what products were being recorded. With the exception of the
Laiterie du Berger, none of the businesses used financial management software packages, and
only one had started using Excel software to keep track of sales.

1
    For FY 2009, PCE was able to collect figures from only 125 partners out of 152.


                                                      7

USAID/Senegal and its partners indirectly contributed to these data quality issues by not
performing sufficient data quality verifications (spot checks) and site visits. There was
insufficient monitoring and evaluation of the program by USAID/Senegal and its partners and
inadequate training for the staff involved in data collection and reporting. One dairy producer
stated that partner or mission staff only came approximately once a year, and each visit was
related to activity implementation rather than verifying data collection and reporting techniques.

USAID/Senegal Mission Order 203-3 establishes a clearly defined and consistently applied
framework for monitoring and evaluating program performance. Specifically, it requires mission
agreement officer’s technical representatives (AOTRs) and activity managers to conduct field
visits and spot checks, review partner activity reports, and perform required data quality
assessments in order to understand the limitations and challenges of obtaining accurate
performance data. The mission order even contains a comprehensive spot check report on
performance data, included as an attachment. Although spot checks were performed during
site visits on the Wula Nafaa program, none were performed during PCE site visits. To comply
with the mission order, all AOTRs should conduct these spot checks.

In addition, although businesses believed the technical training they had received was very
helpful, some confirmed that there was no training on project accounting, administration, and
documentation. Therefore, some businesses were unaware of their responsibility to keep
accurate records.

Reporting inaccurate results can undermine USAID’s credibility and impair USAID’s ability to
secure the resources it needs to accomplish its mission. Internal controls for results reporting
were not sufficiently reliable to ensure that reported service provider results were (1) valid,
(2) attributable to the mission’s program, (3) accurate and supported, and (4) accurately
summarized prior to being reported to the mission. Without accurate reported results,
USAID/Senegal did not have reasonable assurance that data quality met validity, reliability, and
timeliness standards established in ADS 203.3.5.1, Data Quality Standards, the lack of which
could negatively affect performance-based decision making. The likelihood of data quality
issues such as those described above can be minimized if data quality assessments are
adequately completed, site visits are conducted regularly, and monitoring and evaluation of the
program by USAID/Senegal and its partners is improved. To address this deficiency, this audit
makes the following recommendations:

   Recommendation 2. We recommend that USAID/Senegal require International
   Resources Group to (a) require beneficiaries to maintain adequate documentation
   supporting results and (b) establish an action plan to train beneficiaries on maintaining
   adequate documentation.

   Recommendation 3. We recommend that USAID/Senegal develop and implement a
   site visit plan, which incorporates data verification into site visits.

Subcontractor Had a
Conflict of Interest
Federal Acquisition Regulations (FAR) Subpart 9.5 Organizational and Consultant Conflicts of
Interest prescribes responsibilities, general rules, and procedures for identifying, evaluating, and
resolving organizational conflicts of interest. FAR 9.504(a) provides that the contracting officer


                                                 8

is to identify potential conflicts of interest as early in the acquisition process as possible and is to
avoid, neutralize, or mitigate significant conflicts before contract award. Also, Contract
Information Bulletin 99-17 precludes a contractor from furnishing implementation services, as
the prime or subcontractor, when the contractor has a substantial role in the design of an activity
under contract with USAID by providing USAID with “material leading directly, predictably, and
without delay” to a work statement for the implementation of the activity, subject to some
exceptions.

An employee of IRG’s PCE’s subcontractor, Land O’Lakes, Inc. (LOL), had an organizational
conflict of interest with the project. This individual was hired by LOL as the project dairy supply
chain manager, responsible for working with all the dairy producers in Tambacounda. At the
time of his employment, LOL was aware that the individual was an owner and manager of
Jullam Dairy, a producer in the town. LOL and this individual informally agreed that he would
turn over his dairy business to an “arms-length manager,” but he did not reveal to LOL that the
new manager was in fact his brother.

Although throughout FY 2009, several dairy and milk producers in the Tambacounda area were
supported by PCE, Jullam Dairy received very little direct assistance until FY 2010, when PCE
and Jullam Dairy signed a memorandum of understanding and purchase order for
approximately $21,000. When the situation was revealed to LOL, immediate disciplinary action
was taken to remedy the situation. The agreement between PCE and Jullam Dairy was
canceled and the employee in question at LOL was placed on leave until the end of January. In
the meantime, LOL has instigated an investigation, after which it will make a final determination
regarding his employment. This situation occurred because PCE and its subcontractor did not
perform adequate due diligence upon employment of the individual, despite the fact that he had
a financial interest and a tie to a client in the supply chain.

PCE stated that it would review all past and current client agreements to ensure that no other
conflicts of interest exist. Furthermore, PCE would like to institute additional internal controls to
prevent future occurrences. These include a more thorough review and documentation for
selecting clients.

Conflicts of interest pose a threat of unfair competitive advantage to other clients who seek the
same business. Consequently, other producers that were qualified and interested in the dairy
supply chain were overlooked. Although PCE and LOL officials acted swiftly to address this issue,
this audit makes the following recommendations to prevent similar occurrences in the future:

   Recommendation 4. We recommend that USAID/Senegal require International
   Resources Group and its subcontractors’ senior technical and management personnel
   involved with selecting beneficiaries to sign conflict of interest statements.

   Recommendation 5. We recommend that USAID/Senegal require International
   Resources Group to establish and implement procedures with regard to the selection of
   beneficiaries to minimize the risk of other conflicts of interest.




                                                   9

EVALUATION OF MANAGEMENT
COMMENTS
USAID/Senegal agreed with all five recommendations in the draft report. On the basis of the
actions taken by the mission and supporting documentation provided, final action has been
taken on all five recommendations. Our evaluation of management comments is shown below:

Recommendation 1. The mission provided RIG/Dakar with a list of indicators and its contract
end targets for the Wula Nafaa program that were reviewed, revised, and agreed to by
USAID/Senegal and Wula Nafaa. This action constitutes final action on this recommendation.

Recommendation 2. The mission has written a letter to International Resources Group (IRG)
requiring it to take appropriate actions to ensure that adequate supporting documentation is
maintained. IRG, in response, has developed an action plan to address these concerns. This
action constitutes final action on this recommendation.

Recommendation 3. USAID/Senegal’s Economic Growth Office has developed a site visit plan
and template that includes data verification. This action constitutes final action on this
recommendation.

Recommendation 4. The mission has required that all IRG and its subcontractor senior,
technical, and management personnel involved with selecting beneficiaries sign conflict of
interest statements. IRG has provided a list of senior personnel who have signed this
statement. IRG is further requiring all its personnel to sign this statement. This action
constitutes final action on this recommendation.

Recommendation 5. The mission has required IRG to establish procedures to minimize
potential risks of conflict of interest from occurring in the future. IRG in response has
established procedures to clearly define what constitutes a conflict of interest, procedures to
avoid the perception of a conflict of interest, and disciplinary measures in the event a conflict of
interest occurs and is not properly accounted for. This action constitutes final action on this
recommendation.




                                                10 

                                                                                           Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted Government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Senegal’s economic growth
program achieved its main goal of increasing economic growth by improving the enabling
environment to attract more investment, increasing the volume of trade, and creating wealth
through better management of Senegal’s natural resources.

The audit focused on economic growth activities occurring in fiscal years (FYs) 2009 and 2010.
At the time of the audit, the USAID/Senegal economic portfolio included 12 programs with total
funding of approximately $141 million. Of these 12 programs, two of the largest totaling $84.4
million were selected for the audit. In FYs 2009 and 2010, the mission obligated $77.8 million
and expended $32.3 million for economic growth activities. Those selected for audit are shown
in the following table.

             USAID/Senegal’s Economic Growth Partners and Programs Reviewed

    Implementing                               Program                         Agreement/Task Order
    Partner                                                                     Amount       Dates
                                                                              ($ millions)
    International           The Wula Nafaa program provides technical             22.6      8/2008–
    Resources Group         assistance in increasing the sustainable,                       8/2013
                            profitable,   and     decentralized  use   and
                            management of agricultural, marine, and natural
                            resource base.
    International           The Project Croissance Economique program            61.8      12/2005–
    Resources Group         provides technical assistance for strengthening                11/2013
                            value chains in the production and sales of
                            agricultural commodities and increasing the
                            security of the food supply.

In planning and performing the audit, the audit team assessed relevant controls used by the
mission to manage the program and ensure that its implementing partners were providing
adequate oversight of program activities. The assessment included controls related to whether
USAID had (1) reviewed progress and financial reports submitted by the implementing partners,
(2) conducted and documented periodic meetings with the implementing partners, (3) performed
documented visits to the activity sites, and (4) developed and implemented policies and
procedures to safeguard the assets and resources of the activities. Additionally, the auditors
examined the mission’s FY 2010 annual self-assessment of management controls, which the
mission is required to perform to comply with the Federal Managers’ Financial Integrity Act of
19822, to determine whether the assessment cited any relevant weaknesses.

2
    Public Law 97–255, as codified in 31 U.S.C. 3512


                                                       11 

                                                                                       Appendix I



Audit fieldwork was performed at USAID/Senegal, as well as at the implementers’ offices in
Dakar and Tambakounda. The audit team made field trips to 20 beneficiary groups from
December 6 to 10, 2010, in and around the cities of Kaolack and Tambakounda. Additionally,
the audit team made two site visits to Richard-Toll on December 27 and 28.

Methodology
To answer the audit objective, we reviewed the economic growth indicators reported by
USAID/Senegal in FYs 2009 and 2010, as well as activities implemented by selected
implementing partners. We met with the economic growth team in Senegal to gain an
understanding of the program activities and reviewed available agreements, progress reports,
and implementing partner work plans. We reviewed applicable laws and regulations and USAID
policies and procedures pertaining to USAID/Senegal’s economic growth program, including
Automated Directives System guidance, the USAID/Senegal operational plans for FYs 2009 and
2010, and the Senegal 5-year strategy. During site visits, we interviewed implementing partner
staff, service providers, beneficiaries, and officials from the Government of Senegal’s Ministry of
Forestry. We also verified reported results related to sales and jobs created and confirmed
whether activities were being monitored and evaluated as required.

In general, the audit involved (1) validating the reported results under selected key performance
indicators and (2) conducting site visits to selected activities. In validating the program’s
reported results, the audit team focused on the data reported on the following performance
indicators:

   Percentage change in value of purchases from smallholders of targeted commodities as a
    result of USAID assistance
   Number of “full-time” jobs created by USAID-assisted firms
   Total value of sales of USAID-assisted firms
   Number of individuals who received U.S. Government-assisted training to strengthen local
    government and/or decentralization
   Number of hectares under improved natural resource management as a result of U.S.
    Government assistance
   Number of individuals who have received USAID-supported short-term agricultural sector
    productivity training
   Dollar ratio of USAID investment to new sales by firms benefiting from USAID assistance

The scope of our testing was limited to validating the data reported on these indicators for
judgmentally selected sites: 22 facilities, which included villages and producer group offices in
and around the cities of Fatick, Thies, Kaolack, Tambakounda, and Richard-Toll. The 22 sites
chosen for review were located in the regions where economic growth programs were being
implemented and were logistically feasible with the available resources within Senegal, and
included both large and small groups. Since this testing was based on a judgmental, not
statistical, sample of indicators and sites, the results and overall conclusions related to this
analysis were limited to the items tested and could not be projected to the entire audit universe.
However, we believe that our work provides a reasonable basis for our conclusions.




                                                12 

                                                                                        Appendix II



MANAGEMENT COMMENTS 



Memorandum

To:     Gerald Custer, Regional Inspector General/Dakar

From:   Kevin Mullally, Mission Director

Subject: Audit of USAID/Senegal’s Economic Growth Activities (Report Number 7-685-11-
00X-P
_________________________________________________________________________
The USAID/Senegal Mission has received and reviewed the audit report number 7-685-1100X-
P. We want to thank you for this comprehensive audit of our Economic Growth program
focusing on the work of the USAID/Economic Growth Project (USAID/PCE/ and the
USAID/Wula Nafaa Project.

We agree with the five audit recommendations and request management decisions upon issuance
of the final report. The Mission also requests that all recommendations be closed in issuing the
final report based upon the actions already taken as presented in this memorandum. These
recommendations will strengthen our programs and ensure more accurate and robust reporting on
our achievements.

The audit covers a period (2009-2010) that saw a large transition in our economic growth
programs as our funding increased from approximately $3.5 million available in 2009 (with
FY08 funds) to $33 million available in 2010 (using FY09 funds). The Economic Growth
Office only took on new staff starting in July, 2010. For most of the audit period, as stated in the
audit, the Office was understaffed. Readers of this audit should keep in mind that figures stated
for FY09 were in fact funded at a much lower level and only in FY10 were larger funds
available. FY09 activities were designed to set the stage for FY10 higher investment rates to
enable scaling up of activities in FY11 and beyond. Thus the cost effectiveness of our impact in
FY09 is much more than it appears.

The following are actions taken for each of the audit recommendations:

Recommendation 1. We recommend that USAID/Senegal, in conjunction with the International
Resources Group, establish accurate performance targets for the end of the contract period for
all indicators reported by the Wula Nafaa program.




                                                13 

                                                                                     Appendix II


USAID/Senegal agrees with this recommendation. At the request of the Regional Acquisition
and Assistance Officer (RAAO), IRG proposed changes to the performance targets for the end of
the contract period. The Economic Growth Office reviewed, along with staff from the Wula
Nafaa project, each of the indicators and targets to ensure they were useful, accurate and
attainable. The EG Office also took this opportunity to further align indicators to new mandatory
indicators under the Feed the Future Initiative. This work resulted in 8 indicators having their
end of contract targets increased and 7 indicators having their targets decreased. Eight new
indicators were added and 11 removed as they were either redundant or the information they
provided was not useful. A total of 19 indicator targets were not changed out of the total number
of 43 indicators.

Annex I provides an agreed upon matric of indicators and targets between IRG and the EG
Office Director that is currently being incorporated into a contract modification.

Recommendation 2. We recommend that USAID/Senegal require International Resources
Group to (a) require beneficiaries to maintain adequate documentation supporting results and
(b) establish an action plan to train beneficiaries on maintaining adequate documentation.
(Wording of this recommendation was changed from the draft report by Van Nguyen in email
dated 2/15/11).

USAID/Senegal agrees with this recommendation. On January 24, 2011 the RAAO wrote to
IRG requiring that they provide adequate support and backstopping to beneficiaries to ensure
they maintain adequate documentation supporting results which could be verified. The same
letter requested a work plan on how IRG will implement the above requirement. IRG responded
on February 4th stating that they increased their monitoring and evaluation staff and provided a
clear action plan on how that staff would include reporting and monitoring requirements into
client contracts, provide training and material support to the clients to do so, and engage in
regular contact and interaction with the clients.

Although the action plan was adequate and the audit report only focused on one indicator,
USAID/Senegal requested in a letter on February 24th that IRG apply the same data collection
principles to all project beneficiaries from which they rely on data. USAID also requested an
action plan on how IRG will train the beneficiaries to do so throughout the life of the contract.
The response received from IRG on March 2nd reiterates their commitment to training
beneficiaries and provides a clear, acceptable action plan on implementing this training.

Recommendation 3. We recommend that USAID/Senegal develop and implement a site visit
plan, which incorporates data verification into site visits.

USAID/Senegal agrees with this recommendation. USAID/Senegal’s policies on site visit plans,
that includes the incorporation of data verification, is already established in Mission Order
(MO202-1 effective December 21, 2009) “Site Visit Documentation Requirements for
USAID/Senegal.” This Mission Order outlines the responsibilities and requirements for site
visits and reporting, including a section for data collection observations. Moreover, the Mission
conducts Data Quality Assessments on a regular basis to ensure integrity of data.




                                               14 

                                                                                        Appendix II


The Mission does recognize that not enough field trips or reporting was conducted during the
audit period due to understaffing and work load issues of the EG Office. The EG Office Director
developed a quarterly field visit plan (see Annex 2) to ensure that all projects are being
adequately monitored that incorporates data verification into all field trips were it is feasible or
appropriate. This plan will be updated quarterly and actual authorization of field trips will be
continued using the E2 travel authorization system.
The EG Office Director also included “rule of the road” on how field trips should be conducted,
including the continued need to do data verification.

Recommendation 4. We recommend that USAID/Senegal require International Resources
Group and its subcontractors’ senior technical and management personnel involved with
selecting beneficiaries sign conflict of interest statements. (Wording of this recommendation
was changed from the draft report by Van Nguyen in email dated 2/15/11).

USAID/Senegal agrees with this recommendation. On February 24, 2011 the RAAO wrote to
IRG requiring that their senior employees and subcontractors sign letters confirming there are no
conflicts of interest and to provide a list of employees whose non-conflict of interest letters are
on file once the process has been completed. IRG responded that they will require all employees
to sign these letters during this fiscal quarter. This effort will take some time as their staff is
posted throughout the country. However, all senior project staff have already signed a no-
conflict of interest statement and a listing of those individuals is found in Annex 3.

Recommendation 5. We recommend that USAID/Senegal require International Resources Group
to establish and implement procedures with regard to the selection of beneficiaries to minimize
the risk of other conflicts of interest.

USAID/Senegal agrees with this recommendation. In the same February 24, 2011 letter, the
RAAO also required IRG to establish and implement procedures with regard to the selection of
beneficiaries to minimize the risk of other conflict of interest. IRG has established a policy to
ensure this (see Annex 4) that clearly defines a conflict of interest and possible areas where they
may arise for their staff, procedures to follow to control even the perception of a conflict of
interest, provides for annual updates and discipline measures if the policy is not followed.




                                                15 

                                                                                          Appendix III



              TABLE OF INDICATORS
                                              (Unaudited)


Fiscal Year 2009 Indicators, Targets, and Results
                                                                                           Reported
                                                                            Target          Results
Trade and Investment Capacity
Number of firms receiving capacity building to export                           2,100            2,843
Number of U.S. Government (USG)-supported training events on topics
related to investment capacity building and improving trade                          50            148
Number of participants in USG-supported trade and investment capacity-
building trainings                                                              2,600            3,447

Number of trade and investment capacity-building diagnostics conducted               1                0
Agricultural Enabling Environment
Number of individuals who have received USG-supported short-term
agricultural-enabling environment training                                           20               0
Agricultural Sector Capacity
Percent change in value of international exports of targeted agricultural
commodities as a result of USG assistance                                            50             25
Number of new technologies or management practices under research
as a result of USG assistance                                                         5               3
Number of additional hectares under improved technologies or
management practices as a result of USG assistance                               130               628
Number of vulnerable households benefiting directly from USG
assistance                                                                      1,000                 0
Number of rural households benefiting directly from USG interventions           3,000                 0
Number of producers organizations, water users associations, trade and
business associations, and community-based organizations receiving
USG assistance                                                                    360              873
Number of firms provided support                                                4,100            3,456
Number of public-private partnerships formed as a result of USG
assistance                                                                            3               0
Number of individuals who have received USG-supported short-term
agricultural sector productivity training                                       2,800            4,489
Number of individuals who have received USG-supported long-term
agricultural sector productivity training                                             0               2
Percent change in value of purchases from smallholders of targeted
commodities as a result of USG assistance                                            35            194
Number of women’s organizations/associations assisted as a result of
USG interventions                                                                270               206
Private Sector Capacity
Number of firms receiving USG assistance to improve their management
practices                                                                       1,225              675
Number of small or medium enterprises (SME) that successfully
accessed bank loans or private equity as a result of USG assistance                  10             11



                                                 16 

                                                                                         Appendix III


Number of public-private dialogue mechanisms utilized as a result of
USG assistance                                                                       4                1
Amount of private financing mobilized with a Development Credit
Authority guarantee                                                         1,000,000         865,700
Environment
Number of hectares under improved natural resource management as a
result of USG assistance                                                       3,029              691
Number of hectares in areas of biological significance under improved
management as a result of USG assistance                                           55              64
Number of people receiving USG supported training in natural resources
management and/or biodiversity conservation                                    3,000              838
Number of people with increased economic benefits derived from
sustainable natural resource management and conservation as a result
of USG assistance                                                              3,000            8,712
Number of policies, laws, agreements, or regulations promoting
sustainable natural resource management and conservation that are
implemented as a result of USG assistance                                           2                 1
Local Governance
Number of individuals who received USG-assisted training, including
management skills and fiscal management, to strengthen local
government and/or decentralization                                                   -            287


Fiscal Year 2010 Indicators, Targets, and Results
                                                                                           Reported
Indicators                                                                Target           Results
Trade and Investment Enabling Environment
Number of participants in trade and investment environment trainings                 -         20,592
Number of trade and investment environment diagnostics conducted                     -             26
Number of USG-supported training events held that related to improving
the trade and investment environment                                                 -            794
Trade and Investment Capacity
Number of firms receiving capacity building to export                          2,200            5,064
Number of participants in USG-supported trade and investment capacity-
building trainings                                                             2,700                                  ­
Number of trade and investment capacity-building diagnostics conducted             5                      ­
Number of USG-supported training events on topics related to investment
capacity building and improving trade                                              50                         ­
Agricultural Enabling Environment
Number of individuals who have received USG-supported short-term
agricultural-enabling environment training                                         105            213
Number of institution/organization assessments presented for
consultation as a result of USG assistance                                          2              34
Number of institutions/organizations mature/viable in the competency
areas strengthened as a result of USG assistance                                    1                 ­
Number of institutions/organizations undergoing capacity/competency
assessments as a result of USG assistance                                           5                             ­
Number of institutions/organizations undertaking capacity/competency
strengthening as a result of USG assistance                                         5             128
Number of policies/regulations/administrative procedures analyzed as a
result of USG assistance                                                           62              10


                                                  17 

                                                                                           Appendix III


Number of policy reforms/regulations/administrative procedures drafted
and presented for public/stakeholder consultation as a result of USG
assistance                                                                            8                                   ­
Number of policy reforms/regulations/administrative procedures passed
for which implementation has begun with USG assistance                                 -                                      ­
Number of policy reforms/regulations/administrative procedures
presented for legislation/decree as a result of USG assistance                        8                       ­
Agricultural Sector Capacity
Amount of private financing mobilized with a DCA guarantee                     2,000,000      1,407,000
Number of additional hectares under improved technologies or
management practices as a result of USG assistance                                  392             198
Number of agriculture-related firms benefiting directly from USG-
supported interventions                                                          19,532          23,321
Number of farmers and others who have applied new technologies or
management practices as a result of USG assistance                                  750           4,338
Number of individuals who have received USG-supported long-term
agricultural sector productivity or food security training                            2                   ­
Number of individuals who have received USG-supported short-term
agricultural sector productivity or food security training                        5,600          29,219
Number of new technologies or management practices made available
for transfer as a result of USG assistance                                           21              28
Number of new technologies or management practices under research as
a result of USG assistance                                                            6              10
Number of producers organizations, water users associations, trade and
business associations, and community-based organizations receiving
USG assistance                                                                      680           1,121
Number of public-private partnerships formed as a result of USG
assistance                                                                            5               2
Number of rural households benefiting directly from USG interventions             3,000               ­
Number of vulnerable households benefiting directly from USG
assistance                                                                        2,000                               ­
Number of women’s organizations/associations assisted as a result of
USG interventions                                                                   225             105
Percent change in value of international exports of targeted agricultural
commodities as a result of USG assistance                                            25              13
Value of incremental sales (collected at farm/firm level) attributed to Feed
The Future implementation                                                              -        927,768
Number of small or medium enterprises (SME) receiving USG assistance
to access bank loans or private equity                                                -              25
Number of “full-time” jobs created by USAID-assisted firms                        6,100           7,281
Private Sector Capacity
Amount of private financing mobilized with a DCA guarantee                     2,000,000      1,407,000
Number of firms receiving USG assistance to improve their management
practices                                                                         1,500             491
Number of public-private dialogue mechanisms utilized as a result of
USG assistance                                                                        3               1
Number of SMEs that successfully accessed bank loans or private equity
as a result of USG assistance                                                        20                           ­




                                                    18 

                                                                                    Appendix III


Number of public-private dialogue mechanisms utilized as a result of
USG assistance                                                                 4               1
Natural Resources and Biodiversity
Number of hectares in areas of biological significance under improved
management as a result of USG assistance                                   30,000         46,764
Number of hectares under improved natural resource management as a
result of USG assistance                                                  421,814        244,361
Number of people receiving USG-supported training in natural resources
management and/or biodiversity conservation                                 3,750          4,863
Number of people with increased economic benefits derived from
sustainable natural resource management and conservation as a result of
USG assistance                                                              3,750          8,199
Number of policies, laws, agreements, or regulations promoting
sustainable natural resource management and conservation that are
implemented as a result of USG assistance                                      3              46
Local Governance
Number of individuals who received USG-assisted training, including
management skills and fiscal management, to strengthen local
government and/or decentralization                                           700           7,251




                                                 19 

U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
